                AUDIT OF

      COMPLIANCE WITH STANDARDS

 GOVERNING COMBINED DNA INDEX SYSTEM

ACTIVITIES AT THE COUNTY OF SANTA CLARA

 DISTRICT ATTORNEY’S CRIME LABORATORY

          SAN JOSE, CALIFORNIA


        U.S. Department of Justice

      Office of the Inspector General

               Audit Division


       Audit Report GR-90-12-004

            September 2012

                           AUDIT OF

                 COMPLIANCE WITH STANDARDS

            GOVERNING COMBINED DNA INDEX SYSTEM

           ACTIVITIES AT THE COUNTY OF SANTA CLARA

            DISTRICT ATTORNEY’S CRIME LABORATORY

                     SAN JOSE, CALIFORNIA


                            EXECUTIVE SUMMARY


      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the County of Santa
Clara District Attorney’s Crime Laboratory (Laboratory) in San Jose,
California.

Background

      The Federal Bureau of Investigation’s (FBI) CODIS program combines
forensic science and computer technology to provide an investigative tool to
federal, state, and local crime laboratories in the United States, as well as
those from select international law enforcement agencies. The CODIS
program allows these crime laboratories to compare and match DNA profiles
electronically to assist law enforcement in solving crimes and identifying
missing or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS, as
well as develops, supports, and provides the program to crime laboratories
to foster the exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. The National DNA Index System (NDIS), the
highest level in the hierarchy, contains DNA profiles uploaded by law
enforcement agencies across the United States and is managed by the FBI.
NDIS enables the laboratories participating in the CODIS program to
electronically compare DNA profiles on a national level. The State DNA
Index System is used at the state level to serve as a state’s DNA database


       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
and contains DNA profiles from local laboratories and state offenders. The
Local DNA Index System is used by local laboratories.

OIG Audit Objectives

      Our audit generally covered the period from June 2009 through
May 2011. The objectives of our audit were to determine if: (1) the County
of Santa Clara District Attorney’s Crime Laboratory was in compliance with
the NDIS participation requirements; (2) the Laboratory was in compliance
with the Quality Assurance Standards (QAS) issued by the FBI; and (3) the
Laboratory’s forensic DNA profiles in CODIS databases were complete,
accurate, and allowable for inclusion in NDIS.

       Our review determined the following:

       •	 The Laboratory was in compliance with the NDIS participation
          requirements regarding up-to-date training for Laboratory
          personnel; availability and accessibility of NDIS procedures for
          CODIS users, and adequately securing CODIS equipment located in
          a controlled laboratory space. However, the Laboratory did
          not maintain adequate documentation in its case files to prove two
          matches were confirmed and investigators were notified in a timely
          manner.

       •	 The Laboratory was in compliance with the QAS we reviewed,
          including: (1) completion of periodic internal and external QAS
          reviews; (2) implementation of corrective actions presented by
          internal and external reviews; and (3) policies regarding retention
          of evidence. We also observed that the Laboratory was in
          compliance with QAS that require access to the laboratory to be
          controlled and limited in a manner to prevent access by
          unauthorized personnel. Finally, we found the Laboratory does not
          currently outsource the analysis of its forensic DNA samples to
          another laboratory.

       •	 We reviewed 100 of the Laboratory’s 2,746 forensic profiles that
          have been uploaded to NDIS as of April 21, 2011. Of the
          100 forensic profiles sampled, we found that 68 profiles were
          complete, accurate, and allowable for inclusion in NDIS, but
          questioned 32 profiles. 2 Of those 32 profiles, we identified:

       2
         After our draft audit report was issued, the Laboratory provided additional
information not available during our fieldwork, including additional case information for
seven of the profiles we questioned. Based on this new information, we revised the final
audit report and discuss our analysis in more detail in Appendix V.


                                           - ii ­
           (1) 2 profiles uploaded that were not attributable to a putative
           perpetrator; (2) 10 profiles that were obtained from the suspect’s
           person or residence, (3) 11 profiles that pertained to an item that
           was not connected to a crime, and (4) 9 profiles related to case files
           that lacked sufficient information to determine eligibility for NDIS.
           The Laboratory also removed an additional 17 unallowable profiles
           that were not in our original sample, but were also uploaded in
           association with the case files of unallowable profiles in our sample.
           Before our draft report was issued, the Laboratory removed 42
           profiles and we recommended that the FBI work with the
           Laboratory to determine NDIS eligibility for the remaining 7
           profiles. 3 In addition, we recommend the FBI work with the
           Laboratory to strengthen the Laboratory’s profile eligibility review
           process and ensure the Laboratory’s forensic DNA profiles uploaded
           to NDIS from January 2006 through April 2012 are reviewed to
           determine if they meet the eligibility requirements for NDIS.

      We made four recommendations to address the Laboratory’s
compliance with standards governing CODIS activities, which are discussed
in detail in the Findings and Recommendations section of the report. Our
audit objectives, scope, and methodology are detailed in Appendix I of the
report and the audit criteria are detailed in Appendix II.

      We discussed the results of our audit with Laboratory officials and
have included their comments in the report as applicable. In addition, we
requested a written response to a draft of our audit report from the FBI and
the Laboratory. We received those responses and they are found in
Appendices III and IV, respectively. Our analysis of those responses and the
status of the recommendations are found in Appendix V.




       3
          In response to our draft audit report, the FBI stated that two of the remaining
seven profiles were ineligible for upload to NDIS. Of the two ineligible profiles, the first
profile could not be linked to a crime and the second profile’s case file lacked enough
information to determine eligibility for NDIS. The Laboratory removed the two ineligible
profiles and provided additional information not provided to us during our fieldwork
regarding its justification for retaining the remaining five profiles in NDIS. In total, the
Laboratory removed 44 profiles from NDIS. Appendix V discusses the status of this
recommendation in more detail.


                                             - iii ­
                                TABLE OF CONTENTS


INTRODUCTION ................................................................. 1

       Background .................................................................................1

       OIG Audit Objectives ....................................................................1

       Legal Foundation for CODIS...........................................................2

       CODIS Structure ..........................................................................2

       Laboratory Information .................................................................6


FINDINGS AND RECOMMENDATIONS ...................................... 7


       I.	     Compliance with NDIS Participation Requirements ...................7

                  Results of the OIG Audit ...................................................7

                  Conclusion .................................................................... 10

                  Recommendation........................................................... 10

       II.	    Compliance with Quality Assurance Standards ....................... 11

                  Results of the OIG Audit ................................................. 11

                  Conclusion .................................................................... 14

       III.	   Suitability of Forensic DNA Profiles in CODIS Databases.......... 15

                  Results of the OIG Audit ................................................. 16

                  Conclusion .................................................................... 28

                  Recommendations ......................................................... 29



APPENDICES:

I.	    OBJECTIVES, SCOPE, AND METHODOLOGY ............................. 30


II.	   AUDIT CRITERIA .................................................................... 33


III.	 AUDITEE RESPONSE ................................................................37


IV.	   DEPARTMENT OF JUSTICE RESPONSE......................................43


V.	    OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION

       ANALYSIS AND SUMMARY OF ACTIONS NECESSARY

       TO CLOSE THE REPORT............................................................45

                           AUDIT OF

                 COMPLIANCE WITH STANDARDS

            GOVERNING COMBINED DNA INDEX SYSTEM

           ACTIVITIES AT THE COUNTY OF SANTA CLARA

            DISTRICT ATTORNEY’S CRIME LABORATORY

                     SAN JOSE, CALIFORNIA


                                 INTRODUCTION


      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the County of Santa
Clara District Attorney’s Crime Laboratory (Laboratory) in San Jose,
California.

Background

      The Federal Bureau of Investigation’s (FBI) CODIS provides an
investigative tool to federal, state, and local crime laboratories in the United
States using forensic science and computer technology. The CODIS program
allows these laboratories to compare and match DNA profiles electronically,
thereby assisting law enforcement in solving crimes and identifying missing
or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS and is
responsible for its use in fostering the exchange and comparison of forensic
DNA evidence.

OIG Audit Objectives

       Our audit covered the period from June 2009 through May 2011. The
objectives of our audit were to determine if: (1) the County of Santa Clara
District Attorney’s Crime Laboratory was in compliance with the National
DNA Index System (NDIS) participation requirements; (2) the Laboratory
was in compliance with the Quality Assurance Standards (QAS) issued by the
FBI; and (3) the Laboratory’s forensic DNA profiles in CODIS databases were
complete, accurate, and allowable for inclusion in NDIS. Appendix I contains
a detailed description of our audit objectives, scope, and methodology; and
Appendix II contains the criteria used to conduct the audit.


       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
Legal Foundation for CODIS

      The FBI’s CODIS program began as a pilot project in 1990. The DNA
Identification Act of 1994 (Act) authorized the FBI to establish a national
index of DNA profiles for law enforcement purposes. The Act, along with
subsequent amendments, has been codified in a federal statute (Statute)
providing the legal authority to establish and maintain NDIS. 2

Allowable DNA Profiles

      The Statute authorizes NDIS to contain the DNA identification records
of persons convicted of crimes, persons who have been charged in an
indictment or information with a crime, and other persons whose DNA
samples are collected under applicable legal authorities. Samples voluntarily
submitted solely for elimination purposes are not authorized for inclusion in
NDIS. The Statute also authorizes NDIS to include analysis of DNA samples
recovered from crime scenes or from unidentified human remains, as well as
those voluntarily contributed from relatives of missing persons.

Allowable Disclosure of DNA Profiles

       The Statute requires that NDIS only include DNA information that is
based on analyses performed by or on behalf of a criminal justice agency –
or the U.S. Department of Defense – in accordance with QAS issued by the
FBI. The DNA information in the index is authorized to be disclosed only:
(1) to criminal justice agencies for law enforcement identification purposes;
(2) in judicial proceedings, if otherwise admissible pursuant to applicable
statutes or rules; (3) for criminal defense purposes, to a defendant who shall
have access to samples and analyses performed in connection with the case
in which the defendant is charged; or (4) if personally identifiable
information (PII) is removed for a population statistics database, for
identification research and protocol development purposes, or for quality
control purposes.

CODIS Structure

       The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. CODIS consists of a hierarchy of three
distinct levels: (1) NDIS, managed by the FBI as the nation’s DNA database
containing DNA profiles uploaded by participating states; (2) the State DNA
Index System (SDIS) which serves as a state’s DNA database containing
DNA profiles from local laboratories within the state and state offenders; and

      2
          42 U.S.C.A. § 14132 (2006).


                                        -2­
(3) the Local DNA Index System (LDIS), used by local laboratories. DNA
profiles originate at the local level and then flow upward to the state and, if
allowable, national level. For example, the local laboratory in the Palm
Beach County, Florida, Sheriff’s Office sends its profiles to the state
laboratory in Tallahassee, which then uploads the profiles to NDIS. Each
state participating in CODIS has one designated SDIS laboratory. The SDIS
laboratory maintains its own database and is responsible for overseeing
NDIS issues for all CODIS-participating laboratories within the state. The
graphic below illustrates how the system hierarchy works.

                 Example of System Hierarchy within CODIS

                                              NDIS
                                   Maintained by the FBI




SDIS                            SDIS                             SDIS
Laboratory                      Laboratory                       Laboratory
Richmond, CA                    Springfield, IL                  Tallahassee, FL



                                  LDIS Laboratories (partial list):
                                  DuPage County Sheriff’s Office
                                  Illinois State Police, Chicago
                                  Illinois State Police, Rockford

 LDIS Laboratories (partial list):                       LDIS Laboratories (partial list):
 Orange County Sheriff’s Department                      Broward County Sheriff’s Office
 San Bernardino County Sheriff’s Department              Miami-Dade Police Department
 San Diego Police Department                             Palm Beach County Sheriff’s Office



National DNA Index System

       NDIS, the highest level in the CODIS hierarchy, enables laboratories
participating in the CODIS program to electronically compare DNA profiles on
a national level. NDIS does not contain names or other PII about the
profiles. Therefore, matches are resolved through a system of laboratory­
to-laboratory contacts. NDIS contains the following eight searchable
indices:




                                              -3­
       •	   Convicted Offender Index contains profiles generated from persons
            convicted of qualifying offenses. 3

       •	   Arrestee Index is comprised of profiles developed from persons who
            have been arrested, indicted, or charged in an information with a
            crime.

       •	   Legal Index consists of profiles that are produced from DNA
            samples collected from persons under other applicable legal
            authorities. 4

       •	   Detainee Index contains profiles from non-U.S. persons detained
            under the authority of the U.S. and required by law to provide a
            DNA sample for analysis and entry into NDIS.

       •	   Forensic Index profiles originate from, and are associated with,
            evidence found at crime scenes.

       •	   Missing Person Index contains known DNA profiles of missing
            persons and deduced missing persons.

       •	   Unidentified Human (Remains) Index holds profiles from
            unidentified living individuals and the remains of unidentified
            deceased individuals. 5

       •	   Relatives of Missing Person Index is comprised of DNA profiles
            generated from the biological relatives of individuals reported
            missing.

      Given these multiple databases, the main functions of CODIS are to:
(1) generate investigative leads that may help in solving crimes, and
(2) identify missing and unidentified persons.

      The Forensic Index generates investigative leads in CODIS that may
help solve crimes. Investigative leads may be generated through matches
between the Forensic Index and other indices in the system, including the
Convicted Offender, Arrestee, and Legal Indices. These matches may

       3
          The phrase “qualifying offenses” refers to local, state, or federal crimes that
require a person to provide a DNA sample in accordance with applicable laws.
       4
         An example of a Legal Index profile is one from a person found not guilty by
reason of insanity who is required by the relevant state law to provide a DNA sample.
       5
           An example of an Unidentified Human (Remains) Index profile from a living person
is a profile from a child or other individual, who cannot or refuses to identify themselves.


                                             -4­
provide investigators with the identity of suspected perpetrators. CODIS
also links crime scenes through matches between Forensic Index profiles,
potentially identifying serial offenders.

       In addition to generating investigative leads, CODIS furthers the
objectives of the FBI’s National Missing Person DNA Database program
through its ability to identify missing and unidentified individuals. For
instance, those persons may be identified through matches between the
profiles in the Missing Person Index and the Unidentified Human (Remains)
Index. In addition, the profiles within the Missing Person and Unidentified
Human (Remains) Indices may be vetted against the Forensic, Convicted
Offender, Arrestee, Detainee, and Legal Indices to provide investigators with
leads in solving missing and unidentified person cases.

State and Local DNA Index Systems

       The FBI provides CODIS software free of charge to any state or local
law enforcement laboratory performing DNA analysis. Laboratories are able
to use the CODIS software to upload profiles to NDIS. However, before a
laboratory is allowed to participate at the national level and upload DNA
profiles to NDIS, a Memorandum of Understanding (MOU) must be signed
between the FBI and the applicable state’s SDIS laboratory. The MOU
defines the responsibilities of each party, includes a sublicense for the use of
CODIS software, and delineates the standards laboratories must meet in
order to utilize NDIS. Although officials from LDIS laboratories do not sign
an MOU, LDIS laboratories that upload DNA profiles to an SDIS laboratory
are required to adhere to the MOU signed by the SDIS laboratory.

       States are authorized to upload DNA profiles to NDIS based on local,
state, and federal laws, as well as NDIS regulations. However, states or
localities may maintain NDIS-restricted profiles in SDIS or LDIS. For
instance, a local law may allow for the collection and maintenance of a
victim profile at LDIS but NDIS regulations do not authorize the upload of
that profile to the national level.

       CODIS becomes more useful as the quantity of DNA profiles in the
system increases because the potential for additional leads rises. However,
the utility of CODIS relies upon the completeness, accuracy, and quality of
profiles that laboratories upload to the system. Incomplete CODIS profiles
are those for which the required number of core loci were not tested or do
not contain all of the DNA information that resulted from a DNA analysis and
may not be searched at NDIS. 6 The probability of a false match among DNA


      6
          A “locus” is a specific location on a chromosome. The plural form of locus is loci.


                                             -5­
profiles is reduced as the completeness of a profile increases. Inaccurate
profiles, which contain incorrect DNA information or an incorrect specimen
number, may generate false positive leads, false negative comparisons, or
lead to the misidentification of a sample. Further, laws and regulations
exclude certain types of profiles from being uploaded to CODIS to prevent
violations to an individual’s privacy and foster the public’s confidence in
CODIS. Therefore, it is the responsibility of the Laboratory to ensure that it
is adhering to the NDIS participation requirements and the profiles uploaded
to CODIS are complete, accurate, and allowable for inclusion in NDIS.

Laboratory Information

       The Laboratory provides its services to law enforcement and other
agencies located within Santa Clara County, which includes 15 cities and a
total population of approximately 1.8 million people. In addition, the
Laboratory provides, on a fee-for-service basis, its services to law
enforcement and other organizations located outside of Santa Clara County.
Some examples of other organizations that the Laboratory has served
include: Stanford University, Amtrak, the County of Alameda, Marin County
Sheriff’s Office, the City of San Rafael, and San Jose State University. In
total, the Laboratory has processed DNA evidence for more than 50 different
law enforcement and other agencies. The Laboratory participates in the
CODIS program as a LDIS laboratory. In 1992, the Laboratory began
analyzing DNA as a means of processing evidence in criminal cases and in
1998 it began uploading profiles into NDIS. The Laboratory’s participation in
NDIS is limited to uploading forensic profiles to the Forensic Index.

      The Laboratory was first accredited in April 1996 by the American
Society of Crime Laboratory Directors/Laboratory Accreditation Board
(ASCLD/LAB). The Laboratory maintained its ASCLD/LAB accreditation
through June 2011. A 6 month extension of accreditation followed by
another 3 month extension of accreditation was granted under the
ASCLD/LAB Legacy program until March 2012. The extensions were granted
to provide sufficient time for the Laboratory to transition to the ASCLD/LAB
International program for a period of 5 years. The Laboratory received
ASCLD/LAB International program accreditation on March 20, 2012.




                                    -6­
              FINDINGS AND RECOMMENDATIONS

     I.    Compliance with NDIS Participation Requirements

           The Laboratory was in compliance with the NDIS
           participation requirements regarding updated NDIS
           eligibility training for its personnel, maintenance of
           CODIS-related training and proficiency testing
           records for CODIS users, and backing up the CODIS
           server in accordance with NDIS requirements.
           However, we found that the Laboratory did
           not maintain adequate documentation in its case files
           to prove that matches were confirmed and that
           investigators were notified in a timely manner for
           two matches.

      The NDIS participation requirements, which consist of the MOU and
the NDIS Procedure Manual, establish the responsibilities and obligations of
laboratories that participate in the CODIS program at the national level. The
MOU describes the CODIS-related responsibilities of both the Laboratory and
the FBI. The NDIS Procedure Manual is comprised of the NDIS Operational
Procedures and provides detailed instructions for laboratories to follow when
performing certain procedures pertinent to NDIS. The NDIS participation
requirements we reviewed are listed in Appendix II of this report.

Results of the OIG Audit

       We found that the Laboratory did not comply with all of the NDIS
participation requirements we reviewed. Specifically, the Laboratory did not
maintain complete documentation for two of the five matches we reviewed
in our sample. We describe these findings in more detail below.

Match Disposition

      The NDIS Interstate Candidate Match Operational Procedures defines
procedures for NDIS participating laboratories to follow when confirming
matches that are identified in NDIS. In addition, the NDIS Operational
Procedures require that the CODIS Administrator must review and make his
or her best effort to disposition matches within 30 business days.

      We selected a judgmental sample of five NDIS matches and reviewed
available documentation to determine if the Laboratory confirmed the
matches in a timely manner. We were able to determine that the Laboratory
confirmed two of these matches in a timely manner and a third match was



                                    -7­
confirmed in 34 business days because the Laboratory sent the match
confirmation request 27 days after it identified the match.

       For the remaining two matches, which occurred in 2003 and 2006,
there was not enough documentation in the case files for us to determine
whether the confirmation process occurred in a timely manner or that the
Laboratory notified the respective law enforcement agency of the match.
The CODIS Administrator stated that one of the case files did not contain
sufficient documentation because it was before the Laboratory tracked
matches in the CODIS “Match Manager” module. 7 The CODIS Administrator
did not provide us with a reason for why the other case file lacked sufficient
documentation to indicate whether the confirmation process occurred and
whether it occurred in a timely manner. After we informed the Laboratory of
the lack of documentation in two of its case files, the CODIS Administrator
contacted the local law enforcement agencies that provided the DNA to the
Laboratory for analysis and inclusion in NDIS. The CODIS Administrator
stated that one of the local law enforcement agencies was unable to confirm
or deny that it was informed of the match, but confirmed the case had been
closed because the offender whose profile matched the forensic profile was
deceased. The second local law enforcement agency confirmed that it had
been notified of the NDIS match by the Laboratory, but it was unable to
provide a date of the notification. The CODIS Administrator showed us a
report in the CODIS Match Manager module in which the disposition category
was changed to “confirmed” in a timely manner. The CODIS Administrator
added the report to the case file.

       The Laboratory’s match policy requires that the CODIS Administrator
complete a CODIS DNA Match Data Request form and submit it to the other
laboratory’s CODIS Administrator. The CODIS Administrator is then
responsible for ensuring that a copy of the match report is maintained in the
Laboratory’s case file along with a completed national match detail report.
Further, the Laboratory is required to notify the Santa Clara County District
Attorney's Office of the NDIS match as well as the local law enforcement
agency that provided the DNA sample to the Laboratory for analysis and
inclusion in NDIS. However, we concluded that the Laboratory did not
maintain this information for two of the matches we reviewed. Forensic
QAS 5.3.4 states that the casework CODIS Administrator is responsible for

       7
          Match Manager is a module within the CODIS software that identifies matches
between profiles and contains information about those matches, such as the date they were
identified.

        In response to our draft audit report, the Laboratory informed us all matches are
identified in Match Manager and tracked in a “CODIS Hits” excel spreadsheet. This
spreadsheet was not provided during our audit fieldwork; therefore we could not verify
whether it contained these matches in question.


                                           -8­
assuring that matches are dispositioned in accordance with NDIS
operational procedures. As a result, we believe that the Laboratory should
strengthen its policy to help it ensure it will be followed. For example, the
Laboratory should consider specifying in its policy the type of documentation
that should be retained to provide evidence of key actions, such as match
notification involving other laboratories, resulting confirmation, and law
enforcement notification.

Other NDIS Requirements

      Besides the issue stated above, we had no other significant concerns
related to the Laboratory’s compliance with the other NDIS participation
requirements we reviewed. The results of our audit regarding compliance
with NDIS participation requirements are described in more detail below:

     •	 The NDIS General Responsibilities Operational Procedures manual
        requires that participating laboratories ensure that CODIS users are
        notified of and provided access to revised NDIS Operational
        Procedures and other documentation necessary to properly
        participate in NDIS. In addition to its availability on the FBI’s
        Criminal Justice Information System—Wide Area Network, the
        Laboratory’s CODIS Administrator stated that the Laboratory
        provides its personnel with copies of the NDIS procedure manual.
        The CODIS Administrator stated that she also has an enlarged FBI
        decision tree diagram located on the wall by the CODIS terminal, so
        that each CODIS user can refer to it when needed. Finally, we
        judgmentally selected 2 of the 18 CODIS users to interview and
        determined that both users were aware of the NDIS procedures and
        could access the procedures if needed.

     •	 The NDIS Security Requirements state that the NDIS participating
        Laboratory shall be responsible for providing adequate physical
        security for the CODIS servers and terminals against any
        unauthorized personnel gaining access to the computer equipment
        or to any of the stored data. We found that only CODIS users
        within the Laboratory have access to CODIS and the Criminal
        Justice Information System—Wide Area Network located in the
        CODIS server room. Access to this room is limited by key card
        reader and biometric fingerprint identification. Within the CODIS
        server room, access is further limited to one computer workstation.
        Furthermore, we learned that all CODIS users have their own
        CODIS accounts, unique passwords, and must undergo annual
        CODIS training.




                                    -9­
     •	 CODIS users are required to complete annual DNA Records
        Acceptance training. The FBI provided a list to us of Laboratory
        personnel who had received this mandatory annual training, which
        we compared to a list provided by the Laboratory. We found that
        all authorized personnel have successfully completed the annual
        training.

     •	 For each CODIS user, the FBI requires that a participating
        laboratory submit fingerprint cards, background information, CODIS
        user information, and other appropriate documentation to the FBI.
        We verified that all necessary documents were provided to the FBI
        for all 18 CODIS users at the Laboratory.

     •	 At the time of our audit, the NDIS General Responsibilities
        Operational Procedures manual required participating laboratories
        to maintain records of CODIS users, including reports concerning
        proficiency testing, and any other reports or audits required by the
        FBI, for a period of 10 years. We determined that the Laboratory
        maintained hard copies of personnel files for its CODIS users for at
        least 5 years, though before any records are sent to storage or
        purged, the Laboratory scans them into electronic files and the
        digital copy is maintained indefinitely, which is in accordance with
        its in-house policy and it is in compliance with the NDIS Operational
        Procedures’ 10-year retention requirement.

Conclusion

       We found that the Laboratory was in compliance with the NDIS
participation requirements that we reviewed, with one exception. The
Laboratory failed to follow its NDIS match policy and did not maintain
documentation to show that it confirmed matches and notified the respective
law enforcement agency in a timely manner.

Recommendation

     We recommend that the FBI:

     1.	 Ensure the Laboratory abides by its NDIS match policy, including
         maintaining appropriate documentation in its case files.




                                   - 10 ­
       II.    Compliance with Quality Assurance Standards

              We found that the Laboratory complied with the
              Quality Assurance Standards (QAS) we tested.
              Specifically, we found that the Laboratory:
              (1) followed protocols with regard to amplified
              samples being maintained in separate rooms from
              the evidence examination, DNA extraction, and
              polymerase chain reaction (PCR) setup areas;
              (2) underwent Quality Assurance Standard reviews
              within designated timeframes; and (3) had policies in
              place to help ensure that access to the laboratory
              was controlled.

      During our audit, we considered the QAS issued by the FBI. 8 These
standards describe the quality assurance requirements that the Laboratory
must follow to ensure the quality and integrity of the data it produces. We
also assessed the two most recent QAS reviews that the laboratory
underwent. 9 The QAS we reviewed are listed in Appendix II.

Results of the OIG Audit

      We found that the Laboratory complied with the QAS issued by the
FBI. Specifically, we found that the Laboratory: (1) followed protocols with
regard to amplified samples being maintained in separate rooms from the
evidence examination, DNA extraction, and PCR setup areas; (2) underwent
QAS reviews within designated timeframes; and (3) had policies in place to
help ensure access to the laboratory was controlled. These results are
described in more detail below.

      The QAS requires laboratories to undergo an annual review, including
an external review every 2 years. During our fieldwork in May 2011, we
found that the Laboratory had an external QAS review performed in



       8
         Forensic Quality Assurance Standards refer to the Quality Assurance Standards for
Forensic DNA Testing Laboratories, effective July 1, 2009.
       9
          The QAS require that laboratories undergo annual audits. Every other year, the
QAS requires that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These audits
are not required by the QAS to be performed in accordance with the Government Auditing
Standards (GAS) and are not performed by the Department of Justice Office of the
Inspector General. Therefore, we will refer to the QAS audits as reviews (either an internal
laboratory review or an external laboratory review, as applicable) to avoid confusion with
our audits that are conducted in accordance with GAS.


                                          - 11 ­
December 2010 and an internal QAS review performed in June 2009. The
frequency of these reviews met the QAS requirements.

      We reviewed the Laboratory’s prior 2 years of QAS review reports.
Both the internal and external reviews were conducted using the FBI’s QAS
Review Document. The FBI confirmed that at least one of the QAS reviewers
for both reviews had successfully completed the FBI QAS Review training
course. In addition, we reviewed responses and subsequent actions with
regard to the report findings and determined they had been addressed.

     •	 We asked each of the QAS reviewers who conducted the most
        recent external QAS reviews to certify that they had no
        impairments to independence. All five QAS reviewers provided us
        with this certification.

     •	 We reviewed the Laboratory’s policies on physical security of the
        facility, as well as the access key card assignments to Laboratory
        personnel for access to the secured areas of the Laboratory. We
        also toured the Laboratory and observed that the facility remains
        locked and closed to the public at all times. Authorized Laboratory
        personnel enter using a key card and must wear identification
        badges at all times while in the building. All other visitors must
        push the call button and speak to a receptionist in order to gain
        entry through the front doors of the building. Once inside, they
        must be escorted by a staff member and sign a visitor log in order
        to obtain a badge and to enter the locked Laboratory wings. The
        main elevators leading up to the Laboratory floors require a badge
        activation to function. We found that overall external security at
        the Laboratory is adequate and in compliance with the QAS
        requirements we tested.

     •	 The QAS requires amplified DNA to be generated, processed, and
        maintained in a room separate from the evidence examination, DNA
        extraction, and PCR setup areas. We observed that the Laboratory
        has separate rooms for DNA examination and extraction, PCR
        setup, and DNA amplification. The PCR setup room has dedicated
        white laboratory coats for DNA Analysts to wear when working in
        that space in order to prevent contamination. The PCR post-
        amplification room has dedicated blue laboratory coats for DNA
        Analysts to wear. Known and unknown samples are separated by
        space and time during the PCR setup and all evidence flows forward
        only through a specimen window to the amplification room. Based
        upon our observations, we did not identify any material deficiencies
        with regard to the Laboratory performing various DNA analysis
        processes in separate times and separate spaces.


                                  - 12 ­
•	 We reviewed the policies and procedures for the Laboratory’s
   separation of known and unknown DNA samples. According to the
   Laboratory’s Forensic Biology Procedures Manual, reference samples
   are extracted separately in time or space from evidence samples,
   victim-derived samples are analyzed separately from suspect-
   derived samples, and evidence samples predicted to contain high
   levels of DNA are extracted separately from evidence samples
   predicted to contain relatively low levels of DNA. We did not
   identify any material deficiencies with regard to the Laboratory’s
   separation of known and unknown DNA samples.

•	 We reviewed the Laboratory’s policy for evidence sample control,
   which states that “a clear and well-documented chain of custody
   must be maintained from the time the evidence is first received
   until it is released” and will include signature or initials of each
   individual receiving or transferring the evidence, the corresponding
   date for each transfer, and the evidentiary item transferred. The
   chain of custody is documented in the Laboratory Information
   Management System through a bar code placed on each item of
   evidence. Each time an evidence item is removed from the
   Property Control Unit, the bar code is scanned and the Property
   Control Unit records which DNA Analyst is taking the evidence.
   DNA Analysts are assigned locked refrigerators to secure the
   evidence while it is not in the Analyst’s custody. Upon completion
   of DNA analysis, the Laboratory returns the evidence to the police
   department or agency where the item came from. If an agency
   does not pick up the evidence, the laboratory maintains the
   evidence indefinitely, except blood alcohol samples, which are
   disposed of after 1 year. The Laboratory’s policies regarding
   integrity of physical evidence were in accordance with the QAS
   requirements that we tested.

•	 We learned that the Laboratory does not currently outsource the
   analysis of its forensic DNA samples to another laboratory and has
   not done so in the past 2 years.

•	 The NDIS Quality Assurance Standards operational procedure
   entitled Quality Assurance Standards External Audit Review
   Procedures requires that an external quality assurance review be
   forwarded to the FBI’s NDIS Custodian within 30 days of the
   participating laboratory’s receipt of the report. We reviewed the
   submission of the most recent external review and found that the
   report was submitted to the FBI’s NDIS Custodian in a timely
   manner.



                             - 13 ­
Conclusion

      We found that the Laboratory complied with the FBI’s Forensic QAS
that we tested. Specifically, we found that the Laboratory: (1) followed
protocols with regard to amplified samples being maintained in separate
rooms from the evidence examination, DNA extraction, and PCR setup
areas; (2) underwent Quality Assurance Standard reviews within designated
timeframes; and (3) had policies in place to help ensure access to the
laboratory was controlled. We made no recommendations concerning our
review of Quality Assurance Standards.




                                  - 14 ­
       III. Suitability of Forensic DNA Profiles in CODIS Databases

              We questioned 32 of the 100-profile sample that we
              reviewed. 10 Specifically, we found: (1) 2 profiles
              that were not attributable to a putative perpetrator;
              (2) 10 profiles that were obtained from the suspect’s
              person or residence; (3) 11 profiles that pertained to
              an item that was not connected to a crime; and
              (4) 9 profiles related to case files that lacked
              sufficient information to determine eligibility for
              NDIS. The Laboratory also agreed to remove an
              additional 17 unallowable profiles that were not
              included in our original sample, but were also
              uploaded in association with the case files of the
              unallowable profiles in our sample. Before our draft
              report was issued, the Laboratory removed
              42 profiles and we recommended that the FBI work
              with the Laboratory to determine NDIS eligibility for
              the remaining 7 profiles. 11 In addition, we
              recommended that the FBI ensure the Laboratory
              strengthens its profile eligibility review process and
              reviews the NDIS eligibility of its forensic DNA
              profiles that were uploaded to NDIS between January
              2006 and April 2012.

       We reviewed a sample of the Laboratory’s Forensic DNA profiles to
determine whether each profile was complete, accurate, and allowable for
inclusion in NDIS. 12 To test the completeness and accuracy of each profile,
we established standards that require a profile include all the loci for which

       10
          After our draft audit report was issued, the Laboratory provided additional
information not available during our fieldwork, including additional case information for
seven of the profiles we questioned. Based on this new information, we revised the final
audit report and discuss our analysis in more detail in Appendix V.
       11
           In response to our draft audit report, the FBI stated that two of the seven
remaining profiles were ineligible for upload to NDIS. Of the two ineligible profiles, the first
profile could not be linked to a crime and the second profile’s case file lacked enough
information to determine eligibility for NDIS. The Laboratory removed the two ineligible
profiles and provided additional information not provided to us during our fieldwork
regarding its justification for retaining the remaining five profiles in NDIS. In total, the
Laboratory removed 44 profiles from NDIS. Appendix V discusses the status of this
recommendation in more detail.
       12
           When a laboratory’s universe of DNA profiles in NDIS exceeds 1,500, our sample
is taken from SDIS rather than directly from NDIS. See Appendix I for further description of
the sample selection.


                                            - 15 ­
the analyst obtained results, and that the values at each locus match those
identified during analysis. Our standards are described in more detail in
Appendix II of this report.

       The FBI’s NDIS Operational Procedures establish the DNA data
acceptance standards by which laboratories must abide. The FBI also
developed a flowchart as guidance for the laboratories to determine what is
allowable in the forensic index at NDIS. Laboratories are prohibited from
uploading forensic profiles to NDIS that clearly match the DNA profile of the
victim or another known person that is not a suspect. A profile in NDIS that
matches a suspect may be allowable if the contributor is unknown at the
time of collection, however, NDIS guidelines prohibit profiles that match a
suspect if that profile could reasonably have been expected to be on an item
at the crime scene or part of the crime scene independent of the crime. For
instance, a profile from an item seized from the suspect’s person, such as a
shirt, or that was in the possession of the suspect when collected is
generally not a forensic unknown and would not be allowable for upload to
NDIS. The NDIS procedures we reviewed are listed in Appendix II of this
report.

Results of the OIG Audit

       As part of our review, we examined each of the 100 forensic profiles in
our sample to determine its allowability based on NDIS guidelines such as:
(1) whether a crime was committed; (2) whether the profile was obtained
from the crime scene; and (3) whether the profile was attributable to a
putative perpetrator. We selected a random sample of 100 profiles out of
the 2,746 forensic profiles that the Laboratory had uploaded into NDIS as of
April 21, 2011. Of the 100 forensic profiles sampled, we found that 68 were
complete, accurate, and allowable for inclusion in NDIS. We questioned the
suitability of 32 profiles. 13 In addition, we identified 17 unallowable profiles
that were not included in our sample of 100 profiles, but were also uploaded
in association with the case files of unallowable profiles in our sample.
These specific exceptions are explained in more detail below.

Laboratory’s Profile Review Procedures

      According to the FBI’s Quality Assurance Standards for Forensic DNA
testing Laboratories and the Laboratory’s Forensic Biology Quality Assurance


       13
          After our draft audit report was issued, the Laboratory provided additional
information not available during our fieldwork, including additional case information for
seven of the profiles we questioned. Based on this new information, we revised the final
audit report and discuss our analysis in more detail in Appendix V.


                                          - 16 ­
and Quality Control Manual, all cases are required to be technically reviewed
by a qualified DNA Analyst for clerical and technical accuracy. The
Laboratory’s policy states the Technical Reviewer is responsible for verifying
eligibility of all profiles to be entered into NDIS. The verification of NDIS
eligibility by the Technical Reviewer is recorded on the CODIS document
called a “Green Sheet,” which is attached to the final technical review report
and is required to be completed before the profile is uploaded into NDIS.

       According to the Laboratory’s CODIS Administrator, from 2000 until
2007 the Laboratory did not require its Technical Reviewers to verify the
NDIS eligibility of profiles before the profiles were uploaded to NDIS. As a
result, during this period the Laboratory uploaded all of the profiles that
were analyzed by its Analysts, including ineligible profiles. The CODIS
Administrator stated that during this time the Technical Reviewers were not
reviewing the DNA profiles listed on the Green Sheet to determine their
eligibility for inclusion in NDIS. The determination as to which profiles to
upload was made by the former “CODIS Technician,” who did not possess a
DNA analysis background and stated that she was tasked with determining
which profiles on the Green Sheet to enter and upload into NDIS. The
former CODIS Technician also stated that the former CODIS Administrator
instructed her to upload profiles even when the Technician deemed the
profiles to be ineligible. In 2005, the Laboratory ended its practice of
indiscriminately entering profiles, including ineligible profiles, to NDIS when
it appointed a new CODIS Administrator. The new CODIS Administrator
began reviewing all profiles for eligibility before they were uploaded to NDIS.
Further, in 2007, the Laboratory modified its Green Sheet to include a
signature line for its Technical Reviewer to certify that the profiles were
reviewed for NDIS eligibility. While CODIS Technical Reviewers were
required to have a DNA background, only since 2010, has the Laboratory
required its CODIS Technicians to have a DNA analysis background. It also
now requires the DNA Analyst and the Technical Reviewer to determine and
verify profile eligibility.

      During our file review, we found many of the cases did not contain
enough information about the crime, the crime scene, or how the evidence
related to the crime. This was prevalent in the case files that were
established before 2005 when the laboratory stated it strengthened its
review of profile eligibility. However, we came across profiles that had been
uploaded after 2005 that still did not meet the standards for NDIS eligibility.
When we questioned the Laboratory Director and the CODIS Administrator
about these issues, they surmised that unallowable profiles continued to be
uploaded after 2005 due to its DNA Analysts’ general lack of understanding
of the NDIS eligibility requirements. Further, although the CODIS eligibility
flowchart was introduced by the FBI in 2006, the Laboratory continued to
upload unallowable profiles into NDIS after 2006. Specifically, half of the


                                    - 17 ­
unallowable profiles we identified in our review were uploaded into CODIS
after 2006.

       Based on our discussions with the Laboratory Director and the CODIS
Administrator, as well as our review of the information that was available in
the case files, we believe that some DNA Analysts may not have a clear
understanding of the CODIS eligibility requirements, even though they take
and pass the Annual Review of DNA Accepted at NDIS test annually. We
also found several instances of Laboratory personnel not basing DNA profile-
eligibility conclusions on documented information from within its case files.
For example, a police report may provide critical information to help the DNA
Analysts make a decision on whether a profile is allowable or unallowable for
inclusion in CODIS. However, there are some circumstances where
additional information may be necessary. We found that case files for
28 percent of the unallowable profiles we identified in our review did not
contain sufficient information to determine eligibility. Therefore, we
recommend that the FBI ensure that the Laboratory obtains sufficient
information to determine a profile’s eligibility prior to uploading it to NDIS.

Questioned Profiles the Laboratory Retained at NDIS

       In our draft report, we questioned the eligibility of 49 profiles we
reviewed, but the Laboratory disagreed with our questioning of seven of
those. In response to our draft, the Laboratory provided additional
information about the eligibility of five of those profiles, which we added to
this final report. Also in response to our draft report, the FBI concluded that
two of the seven questioned profiles were ineligible for NDIS and should be
deleted. As a result, the Laboratory removed a total of 44 profiles. Below
we discuss the details of those seven profiles.

      OIG Sample CA-02

       Sample CA-02 was taken from a cigarette butt found in the ashtray of
the vehicle that the victim was sitting in at the time he was murdered. The
DNA profile from the cigarette butt was from 1 of 28 cigarette butts found in
the victim’s vehicle and tested for DNA. At the time our draft audit report
was issued, we deemed this profile to be unallowable because there was
insufficient evidence in the case file to connect this item, and other related
cigarette butts, to the perpetrator or the murder. The case file did not
contain any information that placed the putative perpetrator inside the car
where the cigarette butt was found, but rather indicated that the perpetrator
was outside the car when he or she committed the crime. Specifically,
broken glass was found inside the vehicle indicating that the victim was shot
from outside the vehicle rather than inside where the cigarette butt



                                    - 18 ­
was found. Therefore, it does not appear that the perpetrator left the
cigarette butt in the ashtray when he or she committed the crime.

      After the draft audit report was issued, the Laboratory provided
additional information about the crime indicating that the perpetrator may
have been inside the car before the murder. As a result of that additional
information not provided to us during our audit site work, we do not
question the eligibility of this profile.

      OIG Sample CA-05

       Sample CA-05 was taken from saliva on a postage stamp that was
affixed to an envelope. According to the undocumented recollections of the
Laboratory Director and CODIS Administrator, the offense was a parole
violation during which the parolee sent a letter to an individual that he was
not allowed to contact. However, there was no documentation in the case
file to support that any crime had been committed. Therefore, we deemed
this profile to be unallowable. Before our draft audit report was issued, the
CODIS Administrator and the Laboratory Director disagreed with our
assessment and they stated that the profile should remain in NDIS. The
CODIS Administrator stated there was not enough information to remove the
profile from NDIS based on the assumption that eligibility was correctly
determined when the profile was first uploaded. However, the Laboratory
could not provide any evidence to prove that a crime was committed, nor
was there documentation in the case file to support the profile’s eligibility.
General Principal Number 1 of the FBI’s NDIS allowability flowchart states
that “If the documentation does not indicate that a crime was committed,
the profile is not allowable.” Therefore, we disagreed with the Laboratory’s
assessment that this profile was allowable and we recommended that the
FBI work with the Laboratory to determine the profile’s eligibility for
inclusion in CODIS. After the draft audit report was issued, the Laboratory
removed this profile from NDIS.

      OIG Sample CA-27 and Sample CA-89

       Samples CA-27 and CA-89 were taken from blood found on the floor at
the scene of a gang fight that occurred inside a night club. The scene inside
the night club contained blood evidence from several individuals involved in
the fight. However, according to the case file, the crime that was being
investigated was a homicide that had occurred outside of the night club that
same evening. According to information we were provided in the case file,
the murder victim was not involved in the gang fight that occurred inside the
night club. After our draft report was issued, the Laboratory provided
additional information about the crime. As a result of that additional



                                   - 19 ­
information not provided to us during our audit site work, we no longer
question the eligibility of this profile.

      OIG Sample CA-67

       Sample CA-67 was a swab taken from a firearm that was allegedly
used by the suspect in a drive-by shooting. According to the CODIS
Administrator, the firearm was taken from the trunk of a vehicle stopped by
the California Highway Patrol for speeding shortly after the drive-by shooting
was reported. The case file lacked any supporting documentation, such as a
police report, but the information that it did contain indicated that the item
was collected directly from the suspect’s vehicle instead of the crime scene.
There was no additional information in the case file to connect the gun or the
car to the drive-by shooting. Based on the limited information in the case
file, we questioned the eligibility of this profile in our draft audit report.

      However, after our draft report was issued, the Laboratory provided
additional information related to the driver of the car from which the gun
was seized, as well as the gun’s link to the crime. As a result of that
additional information, we no longer question the eligibility of this profile.

      OIG Sample CA-83

       Sample CA-83 was taken from a cigarette butt found next to a bench
in a park across the street from where the victim was shot in a vehicle. We
deemed this profile to be unallowable because the item was not connected
to a crime. We presented this to the CODIS Administrator and the
Laboratory Director, who disagreed that this profile was unallowable and
stated that the profile should remain in NDIS. The CODIS Administrator
stated the police officer’s theory was that the suspect sat in the park
smoking before crossing the street to commit the homicide. The CODIS
Administrator felt this theory was reasonable enough to upload the cigarette
butt as part of the investigation to examine all possible leads in order to
develop a suspect profile from the crime scene. However, we found no
evidence in the case file to support the officer’s theory and we were not
provided any additional evidence to support this theory. As a result, we
reported in the draft audit report that the profile was inappropriate for NDIS
and recommended that the FBI work with the Laboratory to determine the
profile’s eligibility for inclusion in NDIS. After the draft audit report was
issued, the Laboratory removed this profile from NDIS.

      OIG Sample CA-88

     Sample CA-88 was a swab taken from a beer bottle collected by
undercover police officers during an undercover operation to negotiate the


                                     - 20 ­
purchase of an illegal destructive device. The crime was conspiracy to
commit a crime. Before our draft audit report was issued, we deemed this
profile unallowable because it appeared to have been a deduced suspect
profile and not a forensic unknown. Specifically, question V from the NDIS
allowability flowchart asks “was the item seized by law enforcement from the
suspect’s person, or was the item in the possession of the suspect when
collected by law enforcement?” The flow chart indicates that if Yes, “the
profile is not allowable at NDIS.” However, after the draft audit report was
issued the Laboratory provided additional information concerning the
collection of the bottle. As a result of that additional information not
provided to us during our audit site work, we no longer question the
eligibility of this profile.

Questioned Profiles the Laboratory Removed from NDIS

     Below we discuss the remaining profiles that the Laboratory removed
from NDIS.

     OIG Sample CA-03

      Sample CA-03 was taken from a cigarette butt found in a car that was
set on fire. There were multiple cigarette butts taken from the crime scene
during the arson investigation, and the profile uploaded to NDIS was female
even though the police’s suspect that was killed in the fire was male. We
deemed this profile to be unallowable because the profile was not
attributable to a putative perpetrator. We presented this to the CODIS
Administrator and Laboratory Director, who both agreed that this profile was
unallowable and removed it from NDIS. Similarly, the Laboratory removed
an additional four profiles from NDIS that had been taken from cigarette
butts found at the crime scene.

     OIG Sample CA-04

       Sample CA-04 was taken from a swab of a trigger on a gun that an
investigator brought to the Laboratory for comparison to shell casings found
at the crime scene. The gun was retrieved from a different location and was
submitted for comparison to the shell casings at the crime scene. The
profile uploaded to NDIS was not taken from the crime scene. We deemed
this profile to be unallowable because the profile was not retrieved from the
crime scene and was not attributable to a putative perpetrator. We
presented this to the CODIS Administrator and the Laboratory Director who
agreed that this profile was unallowable and removed it from NDIS.




                                   - 21 ­
     OIG Sample CA-14

      Sample CA-14 was taken from a pair of shoes that the suspect was
wearing while in police custody after being arrested. We deemed this profile
to be unallowable because it is not a forensic unknown and it was not
retrieved from the crime scene. We presented this to the CODIS
Administrator and Laboratory Director, who both agreed that this profile was
unallowable and subsequently the Laboratory removed it from NDIS.

     OIG Sample CA-15

       Sample CA-15 was taken from a stain on bedding in the suspect’s
room where a rape had occurred. We deemed this profile to be unallowable
because the profile was taken from the suspect’s bed and is considered a
deduced suspect profile rather than a forensic unknown profile. The
Laboratory or the law enforcement agency investigating the crime could not
provide evidence that the stain was attributed to the crime. We presented
this to the CODIS Administrator and the Laboratory Director, who both
agreed that this profile was unallowable and subsequently removed it from
NDIS.

     OIG Sample CA-19

       Sample CA-19 was taken from clothing collected in the suspect’s
residence and not from the convenience store where the armed robbery had
taken place. We deemed this profile to be unallowable because the profile
was taken from the suspect’s home and is considered a deduced suspect
profile rather than a forensic unknown profile. We presented this to the
CODIS Administrator and the Laboratory Director, who both agreed that this
profile was unallowable and subsequently removed it from NDIS.

     OIG Sample CA-25

       Sample CA-25 was taken from a stain on a couch collected in the
suspect’s residence. We deemed this profile to be unallowable because the
profile was not taken from the crime scene but rather the suspect’s home,
which was not the location of the crime scene. This is considered a deduced
suspect profile rather than a forensic unknown profile. We presented this to
the CODIS Administrator and the Laboratory Director, who both agreed that
this profile was unallowable and subsequently removed it from NDIS.

     OIG Sample CA-29

      Sample CA-29 was taken from a sock collected in the suspect’s
residence and not at the crime scene. We deemed this profile to be


                                   - 22 ­
unallowable because the profile was taken from the suspect’s home and is
considered a deduced suspect profile rather than a forensic unknown profile.
We presented this to the CODIS Administrator and the Laboratory Director,
who both agreed that this profile was unallowable and they subsequently
removed it from NDIS.

      OIG Sample CA-40

       Sample CA-40 was taken from blood found on a knife collected from
the suspect’s residence. According to the CODIS Administrator’s recollection
and interpretation of the evidence in the case file, she stated that when
police officers arrived at the suspect’s home, the suspect had already injured
himself with a knife and he threatened to kill himself. When police
attempted to take the knife away from the suspect, he charged the police
officers and the police officers shot and killed him. We deemed this profile
to be unallowable because the case file lacked sufficient evidence to indicate
that this profile was a forensic unknown. This case was also part of a
routine and required investigation into the officers’ shooting incident. We
presented this to the CODIS Administrator and the Laboratory Director, who
both agreed that this profile was unallowable and subsequently removed it
from NDIS.

      OIG Sample CA-41

      Sample CA-41 was taken from the suspect’s sweat pants seized from
his house. We deemed this profile to be unallowable because the profile was
taken from the suspect’s home and it is reasonable to conclude the suspect’s
DNA would be found on his clothing located inside of his home. We
presented this to the CODIS Administrator and the Laboratory Director, who
both agreed that this profile was unallowable and they subsequently
removed it from NDIS.

      OIG Sample CA-43

      Sample CA-43 was taken from a cigarette butt collected outside the
front of a business where a robbery had occurred. We deemed this profile to
be unallowable because there was no evidence in the case file linking the
item to the crime. We presented this to the CODIS Administrator and the
Laboratory Director, who both agreed that this profile was unallowable and
subsequently removed it from NDIS. The laboratory removed an additional
two profiles from NDIS that had been taken from cigarette butts found in the
same vicinity.




                                    - 23 ­
      OIG Sample CA-50

       Sample CA-50 was taken from a swab of a bullet collected from the
suspect’s vehicle. The suspect was shot by police officers while sitting in his
vehicle. We deemed this profile to be unallowable because the profile was
taken from inside the suspect’s vehicle from one of the rounds which hit the
suspect, on which the suspect’s DNA is expected to be found. In addition,
this case was a routine and required investigation into the officers’ action
and not an investigation of a crime committed by an unknown perpetrator.
As a result, this profile was not a forensic unknown. We presented this to
the CODIS Administrator and the Laboratory Director, who both agreed that
this profile was unallowable and subsequently removed it from NDIS.

      OIG Sample CA-57

      Sample CA-57 was taken from a flashlight found at the suspect's
residence. The victim’s family reported that the victim was sodomized with
a flashlight. However, no victim DNA was found on the flashlight. Only the
suspect’s DNA was found to be on the flashlight. There was not enough
information in the case file to ascertain whether the item was considered
evidence taken from the crime scene. Also, the profile was generated from
an item that was taken from the suspect’s home rather than the crime
scene. Therefore, this was considered a deduced suspect profile. We
presented this to the CODIS Administrator and the Laboratory Director, who
both agreed that this profile was unallowable and they subsequently
removed it from NDIS.

      OIG Sample CA-62

       Sample CA-62 was a swab taken from tissue paper found inside the
suspect’s residence, which was near a street where a homicide had taken
place. There was no evidence in the case file to indicate that the tissue
paper was connected to the crime. Also, the profile was taken from the
suspect’s home and therefore was considered a deduced suspect profile. We
presented this to the CODIS Administrator and Laboratory Director, who
both agreed that this profile was unallowable and subsequently removed it
from NDIS. The CODIS Administrator also removed two additional profiles
from NDIS: (1) one of the profiles was taken from the suspect’s residence
and it matched the suspect’s brother and (2) the other profile was taken off
of a third individual’s shirt.

      OIG Sample CA-69

      Sample CA-69 was taken from a cigarette butt found outside the store
entrance where an armed robbery took place. The police report shows the


                                    - 24 ­
suspect as male and the DNA profile uploaded was a female. We deemed
this profile to be unallowable because the item was not connected to the
crime. We presented this to the CODIS Administrator and the Laboratory
Director, who both agreed that this profile was unallowable and they
subsequently removed it from NDIS. Further, the Laboratory removed an
additional five profiles from NDIS that had been taken from cigarette butts
found outside the store.

     OIG Sample CA-71

       Sample CA-71 was a swab taken from the arm rest of the driver’s door
of a vehicle. The DNA profile collected was from a car that matched the
description of a car leaving the scene of the crime. After the profile was
uploaded to CODIS, the Laboratory received a hit on the profile’s record.
The police officer on this case was not able to connect the person identified
by the CODIS hit to the crime. Additionally, the victim was unable to
identify a suspect. We deemed this profile to be unallowable because the
item did not appear to have been connected to a crime. We presented this
to the CODIS Administrator and the Laboratory Director, who agreed that
this profile was unallowable and they subsequently removed it from NDIS.

     OIG Sample CA-73

       We could not determine where Sample CA-73 was taken from or the
nature of the crime because the case file lacked this information. As a
result, we asked the CODIS Administrator for more information and she
contacted the law enforcement agency that had collected the evidence on a
swab from which the DNA profile was developed. Following this contact, the
CODIS Administrator stated that the item that was swabbed was taken from
the right rear outside door of a stolen vehicle. However, the CODIS
Administrator also informed us the law enforcement agency was
investigating a homicide that occurred at a restaurant when it came across
the stolen vehicle. We discussed this information with the CODIS
Administrator and the Laboratory Director, who agreed that this profile was
unallowable and subsequently removed it from NDIS.

     OIG Sample CA-75

       We were unable to determine the source of Sample CA-75 or the
nature of the crime because the case file lacked this information. As a
result, we requested additional information from Laboratory officials. The
CODIS Administrator contacted the law enforcement agency that collected
the item and found out the sample was taken from tissue paper. The tissue
paper was found at a bank that had been robbed. The police stated the
suspects in the case were male and the DNA profile taken from the tissue


                                   - 25 ­
paper and uploaded was female. We deemed this profile to be unallowable
because the item was not connected to a crime. We presented this to the
CODIS Administrator and the Laboratory Director, who agreed that this
profile was unallowable and removed it from NDIS.

     OIG Sample CA-78

       Sample CA-78 was a swab taken from the exterior of a condom found
at the scene of a homicide. However, the case file did not indicate that a
sexual offense had occurred, nor did it link the condom to the crime. The
uploaded DNA profile matched the victim’s boyfriend, a suspect in the case.
Later, another DNA profile in the case, the origins of which we could not
identify because the case file lacked sufficient information, resulted in a
CODIS hit. The hit led to the identification of the perpetrator, who was not
the boyfriend. The perpetrator was ultimately convicted of the crime. We
deemed this profile to be unallowable because there was no information in
the case file to connect the DNA profile from the condom to the homicide.
We presented this to the CODIS Administrator and the Laboratory Director,
who both agreed that this profile was unallowable and removed it from
NDIS.

     OIG Sample CA-79

       Sample CA-79 was a swab taken from the shoes that the suspect was
wearing. We deemed this profile to be unallowable because the profile was
taken off of the suspect’s person and is considered to be a deduced suspect
profile rather than a forensic unknown. We presented this to the CODIS
Administrator and the Laboratory Director, who both agreed that this profile
was unallowable and removed it from NDIS.

     OIG Sample CA-84

       Sample CA-84 was a swab taken from a sunflower seed. The case file
lacked information regarding the sunflower seed’s relation to the crime,
therefore, the CODIS Administrator contacted the law enforcement agency
that collected the item and found out that the sample was taken from a
sunflower seed found in a rental car that the suspect used while fleeing a
crime scene. The crime committed by the suspect was identity theft and use
of stolen credit cards. However, the car had been returned to the rental car
agency and it was unclear whether the car had been rented again to
someone else after the commission of the crime by the suspect. The DNA
profile taken did not match the suspect convicted of the crime. We deemed
this profile to be unallowable because there was insufficient evidence in the
case file to indicate that the profile was attributable to the putative
perpetrator. We presented this to the CODIS Administrator and the


                                   - 26 ­
Laboratory Director, who both agreed that this profile was unallowable and
removed it from NDIS.

      OIG Sample CA-86

       Sample CA-86 was a cutting from a black wig. The case file lacked
information regarding the wig’s relation to the crime, therefore, the CODIS
Administrator contacted the law enforcement agency that collected the item
and found out the sample was taken from the crime scene of a robbery. The
DNA profile obtained from the wig was a female profile while other evidence
collected from the crime scene and tested contained a male DNA profile.
The CODIS Administrator informed us that the wig was handled by a
courtroom jury before DNA testing was performed. Therefore, the resulting
profile might be attributable to one of the jurors and not to the perpetrator
of the crime. We deemed this profile to be unallowable because the DNA
profile uploaded was not attributable to a putative perpetrator, and the item
was handled by innocent persons after it had been retrieved. We presented
this to the CODIS Administrator and the Laboratory Director, who both
agreed that this profile was unallowable and removed it from NDIS.

      OIG Sample CA-90

       Sample CA-90 was taken from the inside of a latex glove found at the
suspect’s residence and not from the crime scene. We deemed this profile
to be unallowable because the profile was taken from the suspect’s home
and is considered a deduced suspect profile rather than a forensic unknown
profile. We presented this to the CODIS Administrator and the Laboratory
Director, who agreed that this profile was unallowable and subsequently
removed it from NDIS.

      OIG Sample CA-96

      Sample CA-96 was taken from a bloodstain on a rock. The case file
lacked information regarding the connection between the rock and the
crime. Therefore the CODIS Administrator contacted the law enforcement
agency that collected the item and found out the sample was taken from an
area where an assault with a baseball bat occurred. The crime involved
multiple victims at a street intersection, but the information in the case file
did not indicate how the blood on the rock may have been attributable to the
perpetrator, or how it related to the crime. The Laboratory sought victim
elimination samples, but was not successful in obtaining those. The profile
uploaded into CODIS did not match the suspect who pled guilty to the crime.
We presented this to the CODIS Administrator and Laboratory Director, who
determined this profile was inappropriate for NDIS and subsequently
removed it.


                                    - 27 ­
      OIG Sample CA-98

       Sample CA-98 was a swab taken from the steering wheel of the
suspect’s vehicle. The crime was a home invasion and attempted homicide
within a residence. We did not find any evidence in the case file tying the
vehicle to the crime scene. We deemed this profile to be unallowable
because the profile was not retrieved from the crime scene. We presented
this to the CODIS Administrator and Laboratory Director, who agreed that
this profile was unallowable and subsequently removed it from NDIS.

      OIG Sample CA-100

      Sample CA-100 was taken from a cigarette butt picked up outside the
front door of an apartment building where a robbery had occurred. We
deemed this profile to be unallowable because the item was not connected
to the crime. We presented this to the CODIS Administrator and the
Laboratory Director, who agreed that this profile was unallowable and
subsequently removed it from NDIS. The laboratory removed an additional
three profiles from NDIS that had been taken from cigarette butts found
outside the front door of the apartment.

Conclusion

       In our draft report we identified a total of 49 profiles that we believe
were inappropriate for NDIS. The Laboratory removed 42 of these profiles
from NDIS, but disagreed with our questioning of seven profiles. In
response to our draft, the Laboratory provided additional information about
the eligibility of five of those profiles, which we added to this final report.
Also, as a result of our draft report, the FBI concluded that two of the
profiles were deleted. As a result, the Laboratory removed a total of 44
profiles from NDIS.

       We consider 44 to be a large number of inappropriate profiles resulting
from an OIG CODIS audit. We understand that in 2005 the Laboratory
enhanced its profile eligibility review procedures, and in 2006 the FBI
promulgated additional guidance for determining profile eligibility for NDIS.
However, half of the inappropriate profiles in our sample of 100 were
uploaded after 2006. As a result, it does not appear that the Laboratory’s
enhanced procedures were effective in preventing ineligible profiles from
being uploaded to NDIS. In our opinion, the cause of these deficiencies is
related to the lack of sufficient and necessary case file evidence to determine
profile eligibility. In addition, we believe DNA Analysts at the Laboratory
may not have a clear understanding of CODIS eligibility guidelines.




                                     - 28 ­
       As a result of these deficiencies, we recommend that the FBI work with
the Laboratory to strengthen its NDIS eligibility review process to ensure it
properly reviews its DNA profiles for eligibility prior to NDIS upload. This
review process should be based on sufficient case file and evidence
documentation, which is necessary to determine NDIS eligibility. We also
recommend that the FBI work with the Laboratory to ensure that the
appropriate forensic DNA profiles currently in NDIS are reviewed for
eligibility using a strengthened eligibility review process and the NDIS
eligibility flowchart. Specifically, this review should focus on those profiles
that the Laboratory assessed after it revised its procedures and the FBI
promulgated clarifying NDIS eligibility guidance. This would include those
profiles reviewed by the Laboratory from January 2006 through April 2012.

Recommendations

      We recommend that the FBI:

      2.	 Work with the Laboratory to determine NDIS eligibility for the
          remaining seven questioned profiles which the Laboratory believed
          to be allowable.

      3.	 Ensure the Laboratory strengthens its profile eligibility review
          process to include: (1) proper reviews of each forensic profile for
          NDIS eligibility prior to upload, (2) basing its eligibility review
          process on sufficient case file and evidence documentation, and
          (3) only uploading eligible profiles to NDIS. Sufficient
          documented information is necessary to determine a profile’s
          eligibility prior to NDIS upload.

      4.	 Ensure the Laboratory re-reviews its forensic DNA profiles that
          were originally uploaded to NDIS between January 2006 and April
          2012 by applying a strengthened profile review process and the
          NDIS eligibility flowchart. The Laboratory may exclude those 100
          profiles that were reviewed as part of this audit and should
          remove from NDIS any additional ineligible profiles found.




                                    - 29 ­
                                                                         APPENDIX I

              OBJECTIVES, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

       Our audit generally covered, but was not limited to, the period from
June 2009 through May 2011. The objectives of the audit were to determine
if the: (1) Laboratory was in compliance with the NDIS participation
requirements; (2) Laboratory was in compliance with the Quality Assurance
Standards (QAS) issued by the FBI; and (3) Laboratory’s forensic DNA
profiles in CODIS databases were complete, accurate, and allowable for
inclusion in NDIS. To accomplish the objectives of the audit, we:

       •	   Examined internal and external Laboratory QAS review reports and
            supporting documentation for corrective action taken, if any, to
            determine whether: (a) the Laboratory complied with the QAS,
            (b) repeat findings were identified, and (c) recommendations were
            adequately resolved.14

            In accordance with the QAS, the internal and external laboratory
            review procedures are to address, at a minimum, a laboratory’s
            quality assurance program, organization and management, personnel
            qualifications, facilities, evidence control, validation of methods and
            procedures, analytical procedures, calibration and maintenance of
            instruments and equipment, proficiency testing of analysts, corrective
            action for discrepancies and errors, review of case files, reports,
            safety, and previous audits. The QAS require that internal and
            external reviews be performed by personnel who have successfully
            completed the FBI’s training course for conducting such reviews.


       14
           The QAS require that laboratories undergo annual audits, which every other year,
must be performed by an external agency that performs DNA identification analysis and is
independent of the laboratory being reviewed. The QAS does not require these audits to be
performed in accordance with the Government Auditing Standards (GAS) and they are not
performed by the Department of Justice Office of the Inspector General. Therefore, we
refer to the QAS audits as either internal or external laboratory reviews, as applicable, to
avoid confusion with our audits that are conducted in accordance with GAS.


                                          - 30 ­
             As permitted by GAS 7.42 (2007 revision), we generally relied on
             the results of the Laboratory’s external laboratory review to
             determine if the Laboratory complied with the QAS. 15 In order to
             rely on the work of non-auditors, GAS requires that we perform
             procedures to obtain sufficient evidence that the work can be relied
             upon. Therefore, we: (1) obtained evidence concerning the
             qualifications and independence of the individuals who conducted
             the review and (2) determined that the scope, quality, and timing
             of the audit work performed was adequate for reliance in the
             context of the current audit objectives by reviewing the evaluation
             procedure guide and resultant findings to understand the methods
             and significant assumptions used by the individuals conducting the
             reviews. Based on this work, we determined that we could rely on
             the results of the Laboratory’s external laboratory review.

       •	 Interviewed Laboratory officials to identify management controls,
          Laboratory operational policies and procedures, Laboratory
          certifications or accreditations, and analytical information related to
          DNA profiles.

       •	 Toured the Laboratory to observe facility security measures as well as
          the procedures and controls related to the receipt, processing,
          analyzing, and storage of forensic evidence and convicted offender
          DNA samples.

       •	 Reviewed the Laboratory’s written policies and procedures related to
          conducting internal reviews, resolving review findings, expunging
          DNA profiles from NDIS, and resolving matches among DNA profiles
          in NDIS.

       •	 Reviewed supporting documentation for 5 of 32 NDIS matches to
          determine whether they were resolved in a timely manner. The
          Laboratory provided the universe of NDIS matches as of May 31,
          2011. The sample was judgmentally selected to include both case-
          to-case and case-to-offender matches. This non-statistical sample
          does not allow projection of the test results to all matches.

       •	 Reviewed the case files for selected forensic DNA profiles to
          determine if the profiles were developed in accordance with the

       15	
           We also considered the results of the Laboratory’s internal laboratory review, but
could not rely on it because it was not performed by personnel independent of the
Laboratory. Further, as noted in Appendix II, we performed audit testing to verify
Laboratory compliance with specific Quality Assurance Standards that have a substantial
effect on the integrity of the DNA profiles uploaded to NDIS.


                                           - 31 ­
         Forensic QAS and were complete, accurate, and allowable for
         inclusion in NDIS.

         Working in conjunction with the contractor used by the FBI to
         maintain NDIS and the CODIS software, we obtained an electronic
         file identifying the 2,746 Short Tandem Repeat (STR) forensic
         profiles the Laboratory had uploaded to NDIS as of April 21, 2011.
         We limited our review to a sample of 100 profiles. This sample size
         was determined judgmentally because preliminary audit work
         determined that risk was not unacceptably high.

      •	 Using the judgmentally-determined sample size, we randomly
         selected a representative sample of labels associated with specific
         profiles in our universe to reduce the effect of any patterns in the list
         of profiles provided to us. However, since the sample size was
         judgmentally determined, the results obtained from testing this
         limited sample of profiles may not be projected to the universe of
         profiles from which the sample was selected.

      The objectives of our audit concerned the Laboratory's compliance with
required standards and the related internal controls. Accordingly, we did not
attach a separate statement on compliance with laws and regulations or a
statement on internal controls to this report. See Appendix II for detailed
information on our audit criteria.




                                     - 32 ­
                                                              APPENDIX II

                             AUDIT CRITERIA

      In conducting our audit, we considered the NDIS participation
requirements and the Quality Assurance Standards (QAS). However, we did
not test for compliance with elements that were not applicable to the
Laboratory. In addition, we established standards to test the completeness
and accuracy of DNA profiles as well as the timely notification of DNA profile
matches to law enforcement.

NDIS Participation Requirements

       The NDIS participation requirements, which consist of the
Memorandum of Understanding (MOU) and the NDIS operational procedures,
establish the responsibilities and obligations of laboratories that participate
in NDIS. The MOU requires that NDIS participants comply with federal
legislation and the QAS, as well as NDIS-specific requirements
accompanying the MOU in the form of appendices. We focused our audit on
specific sections of the following NDIS requirements.

      •   DNA Data Acceptance Standards
      •   DNA Data Accepted at NDIS
      •   Quality Assurance Standards Reviews
      •   NDIS DNA Autosearches
      •   Confirm an Interstate Candidate Match
      •   General Responsibilities
      •   Initiate and Maintain a Laboratory’s Participation in NDIS
      •   Security Requirements
      •   CODIS Users
      •   CODIS Administrator Responsibilities
      •   Access to, and Disclosure of, DNA Records and Samples
      •   Upload of DNA Records

Quality Assurance Standards

      The FBI issued two sets of Quality Assurance Standards: (1) QAS for
Forensic DNA Testing Laboratories, effective July 1, 2009, (Forensic QAS);
and (2) QAS for DNA Databasing Laboratories, effective July 1, 2009,
(Offender QAS). The Forensic QAS and the Offender QAS describe the
quality assurance requirements that the Laboratory should follow to ensure
the quality and integrity of the data it produces.




                                     - 33 ­
       For our audit, we generally relied on the reported results of the
Laboratory’s most recent annual external review to determine if the
Laboratory was in compliance with the QAS. Additionally, we performed
audit work to verify that the Laboratory was in compliance with the QAS
listed below because they have a substantial effect on the integrity of the
DNA profiles uploaded to NDIS.

      •	 Facilities (Forensic QAS and Offender QAS 6.1): The laboratory shall
         have a facility that is designed to ensure the integrity of the
         analyses and the evidence.

      •	 Evidence Control (Forensic QAS 7.1): The laboratory shall have and
         follow a documented evidence control system to ensure the integrity
         of physical evidence. Where possible, the laboratory shall retain or
         return a portion of the evidence sample or extract.

      •	 Sample Control (Offender QAS 7.1): The laboratory shall have and
         follow a documented sample inventory control system to ensure the
         integrity of database and known samples.

      •	 Analytical Procedures (Forensic QAS and Offender QAS 9.5): The
         laboratory shall monitor the analytical procedures using [appropriate]
         controls and standards.

      •	 Review (Forensic QAS 12.1): The laboratory shall conduct
         administrative and technical reviews of all case files and reports to
         ensure conclusions and supporting data are reasonable and within
         the constraints of scientific knowledge.

         (Offender QAS Standard 12.1): The laboratory shall have and follow
         written procedures for reviewing DNA records and DNA database
         information, including the resolution of database matches.

      •	 [Reviews] (Forensic QAS and Offender QAS 15.1 and 15.2): The
         laboratory shall be audited annually in accordance with [the QAS].
         The annual audits shall occur every calendar year and shall be at
         least 6 months and no more than 18 months apart.

         At least once every 2 years, an external audit shall be conducted by
         an audit team comprised of qualified auditors from a second
         agency(ies) and having at least one team member who is or has
         been previously qualified in the laboratory’s current DNA
         technologies and platform.




                                     - 34 ­
     •	 Outsourcing (Forensic QAS and Offender QAS Standard 17.1): A
        vendor laboratory performing forensic and database DNA analysis
        shall comply with these Standards and the accreditation requirements
        of federal law.

     •	 (Forensic QAS 17.4): An NDIS participating laboratory shall have
        and follow a procedure to verify the integrity of the DNA data
        received through the performance of the technical review of DNA
        data from a vendor laboratory.

     •	 (Offender QAS Standard 17.4): An NDIS participating laboratory
        shall have, follow and document appropriate quality assurance
        procedures to verify the integrity of the data received from the
        vendor laboratory including, but not limited to, the following: Random
        reanalysis of database, known or casework reference samples;
        Inclusion of QC samples; Performance of an on-site visit by an NDIS
        participating laboratory or multi-laboratory system outsourcing DNA
        sample(s) to a vendor laboratory or accepting ownership of DNA data
        from a vendor laboratory.

Office of the Inspector General Standards

       We established standards to test the completeness and accuracy of
DNA profiles as well as the timely notification of law enforcement when DNA
profile matches occur in NDIS. Our standards are listed below.

     •	 Completeness of DNA Profiles: A profile must include each value
        returned at each locus for which the analyst obtained results. Our
        rationale for this standard is that the probability of a false match
        among DNA profiles is reduced as the number of loci included in a
        profile increases. A false match would require the unnecessary use
        of laboratory resources to refute the match.

     •	 Accuracy of DNA Profiles: The values at each locus of a profile
        must match those identified during analysis. Our rationale for this
        standard is that inaccurate profiles may: (1) preclude DNA profiles
        from being matched and, therefore, the potential to link convicted
        offenders to a crime or to link previously unrelated crimes to each
        other may be lost; or (2) result in a false match that would require
        the unnecessary use of laboratory resources to refute the match.

     •	 Timely Notification of Law Enforcement When DNA Profile Matches
        Occur in NDIS: Laboratories should notify law enforcement
        personnel of NDIS matches within 2 weeks of the match
        confirmation date, unless there are extenuating circumstances.


                                   - 35 ­
Our rationale for this standard is that untimely notification of law
enforcement personnel may result in the suspected perpetrator
committing additional, and possibly more egregious, crimes if the
individual is not deceased or already incarcerated for the
commission of other crimes.




                           - 36 ­
                                                                                                                    APPENDIX III


                                             AUDITEE RESPONSE


County of Santa Clara
Crilile Labo ra tory
OI'1k:c.; of the Dis tric t " Horney
250 Wesl HecKling 5 1reel
SWI Jose. Calilo rn ia 95 1 10
(~OH)   808·50ClQ




.It'l fw ), F. Ro sen                                                                                               li:m F 1 Cl l
                                                                                                                            l
DI.~mi c l   I\HOrn ey                                                                                              Labori'l io ry DireC to r




                 David J. Gasc hke
                 Regional Audit Manager
                 San Francisco Regional Audit Office
                 Office or the Inspector General
                 U.S. Department of Justice
                 1200 Bayhill Dri ve, Suite 201
                 San Bruno , California 94066
                                                                                                      May 3, 2012
                 Dear Mr. Gaschke:

                 Here is our official response to the draft audit repan on the Audit of Compliance with
                 Standards Governing Combined DNA Index System (COOlS) Activities at the County                            or
                 Santa C lara Di stri ct A tto rney' s Crime Laboratory, dated April 12, 20 12:

                 We question the accuracy of a few statements in the draft audi t report, and request
                 clarification on several other statements:

                 Page ii - "Our audit generally covered the period from June 2009 through May 20 11."

                 Page I - " Our audit covered the period from June 2009 through May 20 11 .'

                 Response: Our understanding is that the audit covered CO OlS entries and procedures
                 dating back to 1998.

                 Page 6 - " In 1998 , the Laboratory began analyzi ng DNA as a means o f processing
                 evidence in criminal cases . .. "

                 Response: In 1998 , the Laboratory began perfonning STR DNA analysi s with the
                 Profi ler Plus ampli ficati on kit. The Laboratory actuall y began analyzing DNA as a
                 means of processin g evidence in crim inal cases in 1992 using DQa, and added D I S80 in
                 1996.

                 Page 8 - " For the remain ing two matches . .. not enough documentation in case fil es . .. "
                 and page 8 to age 9 - " Forensic QAS 5.3 .4 states that the casework COO lS Admini strator
                 is responsible for assuring that matches arc di spositioncd in accordance with NDIS




A<.:(rcdiced      I)" C Am eriC<ln SOCielY of crim e U'lboralOr), Oirecc rSlLaiJorruo ry
                      ile                                              o                   AccredhaUOll Boord .




                                                                   - 37 - 

operational procedures. As a result, we believe that the Laboratory should strengthen its
policy to help it ensure it will be foll owed."

Response: We feel that a date should be added for these two matches, since they
occurred prior to updates in Laboratory and QAS procedures. In addition, all QAS audits
of our Laboratory. to date, have resulted in no findings pertaining to QAS 5.3.4. Note
that on page 14, the conclusion states, " We fo und that the Laboratory complied wi th the
FBI's Forensic QAS that we tested ." Thus, it is unclear to us why the OIG fee ls that the
Laboratory should fu rther strengthen i t~ po li cy in regards to QAS 5.3.4.

Page 8 - " The COO lS Adm ini strator stated that one of the case files did not contain
suffi cient documentation because it was before the Laboratory tracked matches in the
COOlS " Matc h Manager."

Response: All matches from LDIS, SD IS, and ND IS are recorded in Match Manager, and
tracked in our in-house COOlS Hits Excel spreadsheet. We are uncl ear how
documentation in the case file relates to tracki ng matches in Match Manager. We would
appreciate clarification on this statement.

Page 12 - "The PCR setup room has ded icated blue lab coats for DNA Analysts to wear
when working in that space in order to prevent con tamination. "

Response: For clarification, the PCR post-amplificati on room has dedicated blue lab
coats fo r DNA Analysts to wear. The PCR setup room is pre-amp li fication , so white lab
coats are worn in there.

Page 17 - "Since 20 I 0, the Laboratory now requi res its Technica l Reviewer to have a
DNA analysis background."

Response: Since the inception of the DNA program in 1992, DNA casework technical
rev iewers have always had a DNA analysis background . For cJarifi c8lion, the review
process was strengthened in 2007 by adding the req uirement that the DNA technical
reviewer sign the COO lS entry sheet, verify ing COOlS e ligibility of the profile(s).

Page 17 - "Based on our discussions with Laboratory officials and our review of the
information that was availab le in the case files, we believe that some Laboratory officials
may not have a clear understanding of the COOlS eli gibility req uirements."

Response: We are unclear what DIG means by " Laboratory officials." The COOlS
Admini strator and CO DlS users do have a clear understanding of CO OlS e ligibility
requirements. They take and pass the Annual Review of ON A Data Accepted at NO IS
test each year.




                                         - 38 - 

Action Items

Page iii -
        work wit h FB I to determine ND IS eli gibility for the remainin g 7 profiles (sec
        disputed profiles section for details on these cases)
        work with FB I to strengthen procedures
       review profiles uploaded from January 2006 to April 2012

Response: Profiles entered inlo COOlS from 2006 to 20 I 0 have already been reviewed.
We have found significantly more documentation in 2010 than 2006 with increasing
documentation from year to year. The 20 10 review is not finding many issues . The
Laboratory does not feel that profil es entered in 201 1 and 2012 need to be reviewed, as
these newer COO lS entries have been performed under updated Laboratory procedures
and with observatiQns from the OIG aud it in mind.

Page 10-
Recommendation - " We recommend that the FB I: 1. Ensure the Laboratory abides by its
 DIS match policy, including maintaining appropriate documentation its case files."

Response: We updated our Laboratory COO lS procedures in 2010 after we began using
CHOP (California 's CODIS Hit Outcome Project) and in 201 1 pri or to our ASCLDiLAB
ISO inspecti on.




                                           - 39 - 

Response to Disputed Profiles

The Laboratory consulted with the FBI regarding seven disputed profiles. As a resull,
one additional profile was removed from COO lS, and the remaining six were left in. Our
justifications follow:

CA-02    This is a murder case. The victim was a known homosexual who often picked
         up men and took them to a parking garage. It was a known place for
         homosexual males to "hangout". The victim was shot dead while in the driver
         seat of hi ~ vehicle. This case is cold and there are no leads. Cigarette butts
         from the victim's car and from the parking garage around the car were tested
         and the profiles uploaded to CODIS.

         The OIG auditors state, "We acknowledge that the cigarette butt may have been
         at the crime scene, but, at the same time it is unknown how long it had been in
         the victim's car and it does not appear it was connected to the crime." We
         based our COOlS entry, in part, on infonnation and theories provided to us by
         the crime scene investigators. While some of the cigarette butts may not be
         attributable to the perpetrator, one may be. Unfortunately, in this case, there is
         no way of collecting elimination samples from people who potentially left
         cigarette butts in the car or garage. The Laboratory's position is that the
         cigarette butts were collected from the crime scene, and it is reasonable to infer
         that one of the cigarette butts may be attributable to the perpetrator. (1995 case,
         2007 report).


CA-05    A threatening letter was sent to a female. A male she knew was suspected of
         the crime. Sending her a letter was a violation of his probation. A DNA profile
         was obtained from the stamps/envelope of the threatening letter and uploaded to
         COO lS. The Laboratory did not have a reference from the listed suspect. The
         evidence profile hit to the li sted suspect in COOlS (hit to unconfinned suspect).
         The agency never submitted a reference sample for confinnation. In 20 II,
         during the 010 audit, we attempted to obtain a police report, but the police
         department stated they purge these records every ten years. There is no way 10
         obtain the police report to see what the li sted crime type is. (1999 case, 1999
         report)

         RESOLVED: Because the original police report has been purged and the case
         was not submitted to the Laboratory with a crime type, we have removed this
         profile from CODIS.


CA-27/ CA-89 - Both are from the same case. The victim was riding in a car that was at
        a night club, left the club, and entered the freeway. A victim was shot and
        killed while in a car on the freeway. The car was being pursued by another car
        that also originated at the night club. The police think the shooter was in a fight




                                         - 40 - 

        at the club earlier that night. Blood swabs were co ll ected from the club and
        parking lot/sidewalk where police thought the suspect may have ned. Three
        proliles were entered into COO lS (CA-2 7, CA-8 9, and a third). A thi rd profile
        (not chosen for the audit) hit to an offe nder and was subsequently removed
        because po li ce thought that particular person was not related to the homicide.
        The other two remain as unknowns in CO OlS. (2009 case, 20 I 0 report)
        The Laboratory's position is that, based on facts provided by police, it is
        reasonable to infer that one of the bloodstai ns may be attributable to the
        perpetrator o f the shooting.


CA-67   A shooting into an inhabited dwelling (246 PC) occurred and was being
        in vestigated by the police department (PD). A car in the dri veway of the
        dwelling was also shot, accord in.g to the police report. On the same day, the
        Cali forni a Hi ghway Patrol (CHP) in the same jurisdiction pulled over a ve hicle
        for traveli ng 90 mph. The CHP realized the individuals they pulled over may be
        suspects in the PO case. CHP confiscated a loaded handgun from the trunk of
        the vehicle. There were two people in the vehicle (driver and passenger). The
        gun (from the CHP traffic stop) was linked to the PO case by firearms analysis.
        The fireanns report was in the case fil e for the auditors to look at. The fireanns
        examiner swabbed the gun for DNA. The DNA examiner obtained a profil e
        from the gun swab and entered it into COOlS. (2007 case, 2009 report)

        We obtained a copy of the CHP repo rt during the a la aud it. They charged the
        dri ver of the vehi cle from the traffic stop with a series of vehicle code
        violations. The dri ver gave the CHP false infa nnation, and said he was a gang
        member. Officers from the PO stated that they believed that the shooting at the
        dwelli ng was gang-related. The Laboratory' s position is that, based on facts
        provided by police, it is reasonable to infer that the DNA on the gun may be
        attributable to the perpetrator in the PO case.


CA-83   The PO suspect the shooter in thi s homicide was wailing for the victim to return
        home and believe he may have smoked some cigarenes near a park bench across
        the street fro m the victim 's house. DNA was obtained fro m the cigarette butts
        and upl oaded to CO OlS. Auditors feel lhat cigarette butts near a park bench
        could belong to anyone and should not be uploaded to COOlS, even ifpolice
        believe they cou ld belong to the perpetrator. (2006 case, 20 II report)

        During the OIG aud it, the CODIS Admini strator spoke to a po lice o fficer, who
        stated her theory and reasoning for submitting the cigarette butts. The
        Laboratory has req uested more documentation from the police department. At
        the current time, the Laboratory ' s position is that, based on known
        circumstances about the case at thi s time, it is reasonable to infer that the DNA
        from one of the cigarette butts may be attributed to the perpetrator of the
        shooting.




                                       - 41 - 

CA-88    The following is a quote from a ODA at the Santa Clara County District
         Attorney's Office. "This beer bottle was given to a guy who was negotiating
         with undercover PO Officers to sell them a destructi ve device (See PC 12301 et
         seq.). There is no vict im if yOll wi ll in the case so no victim sample. In look ing
         at the COP IS match report, this profile goes to the co-defendant. The beer
         bottle was submitted before he was ID' d and arrested to figure out who the
         suspect was. Since he was later found and pled guilty, we never did have to
         submit a follow up sample for 10 purposes. I be lieve that samp le is in COOlS
         as a suspect profi le properly." (2007 case, 2007 report) The e-mail from the
         DDA was sent during the OIG audit and shown to the auditors.

          The crime scene was the location of the negotiation for the sale of a destructive
          device. The perpetrator, while attempt ing to sell an explosive device, left the
          beer bottle at the crime scene, as witnessed by the undercove r police officer.
          The Laboratory' s position is that the DNA from the beer bottle was uploaded to
          CODIS to try to detennine the identity of the perpetrator.


If you have any questi ons, please don' t hesi tate to contact us.

Sincerely,




Ian Fitch
Laboratory Director



Brooke Barloewen
COO lS Manager




                                           - 42 - 

                                                                                                  APPENDIX IV


    DEPARTMENT OF JUSTICE RESPONSE





                                                                u.s.   ne,:..rt".111 or J"'tic.
                                                                 Federal Bureau ofInvestigation



                                                                 w~         O.c. lOSJs.«iOL

                                                                 May 11.2012

David J. Gasch!:e
Regional Audit Manager
San Franci$CO Regional Audil Office
Office of the Inspector General
1200 Bayhill Drive. Suile 201
San Bruno. CA 94066


Dear Mr. Oa.schke:

                 Your memorandum to Director Mueller forwarding the draft audit report for the County
of Santa Clara District Attorney's Crime Laboratory, San Jose, California ("Laboratory"), has been
referred 10 me for response.
               Your draft audit report contained four recommendations relating to the Laboratory 's
compliance with the FBI's Memorandum of Understanding and Quality A$$l/I'Q1Ice Standards/or
Forensic DNA Tes/ing lAboratories.

                With respect to recommendation one relating 10 the adherence of the Laboratory to ilS
NDiS match policy, the FBI COOlS Unit is working with the Laboratory to reach a mutually acceptable
plan for the maintenance ofappropria~ case file documentation.
                  With respect to f«OITLmendation two relating 10 NDIS eligibility of scven questioned
profiles, it has been determined by the Laboratory and tile FBI COOlS Unit that profilu CA·02, CA-27,
CA-S9, CA-67 are allowable and profiles CA.()S and CA-S3 have been deleted.
                   With respe<:tlO ~alion three relating 10 profile eligibility review prO<:c$$CS, the
FBI CODIS Unit believcs that detailed discussion$ with th c 010 and COOlS Unit personnel has allowed
the LaborntOl)' 10 have a c1cartr understanding ofNDIS eligibility rcquimnenlS and the importance of
ma!:ing eli gibility decisions based upon complete and appropriate ease file documentation. Henceforth.
the LaboralOl)' will endeavor to only upload truly allowable profiles to NDiS.
                  With respect 10 recommendation four re lating 1 the re-review offorensic profiles 10
                                                                 0
ensure the allowability of those profiles uploaded 10 NDIS between January 2006 and April 20 12, the
LahoratOl)' has completed its review of all of the profiles from 2006 to 2010. It is anticipated that the
Laboratory will be able to submit documentation sUpPOrting its review of the forensic profiles soon. The
fBI coors     Unit is in contact with the taboratory and continues to work with its staffon a mdtually
a<:<:eptable plan regardi ng the rc-review of the mnaining profiles. The COOlS Un it continues to monitor
the Laboratory's progress in oompleling this tas!:.




                                       .'




                                              - 43 - 

David I. Gaschke, Regional Audit Manas«
Page 2



                 Thank you for sharing the draft audit repOrt with us. If you have any questions, please
feel free to contact Jennifer Wendel, Chief of the COOlS Unit, at. (103) 632-83 IS.
                                                                  Sincerely,



                                                                  dkul<.~
                                                                  Aliee R. ls.enberg
                                                                  Section Chief
                                                                  Biometries Analysis Section
                                                                  FBI Labontory




                                                - 44 - 

                                                              APPENDIX V

  OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION

         ANALYSIS AND SUMMARY OF ACTIONS

           NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft copy of this audit report to the Laboratory
and the FBI. Individual responses from the Laboratory and the FBI are
incorporated in Appendices III and IV, respectively. The following provides
the OIG analysis of the responses and summary of actions necessary to
close the report.

Analysis of Auditee’s Response

      In response to our report, the FBI and the Laboratory did not explicitly
state whether they agreed with each recommendation. In addition, the
Laboratory provided additional information in its response to the draft audit
report, as discussed below and in the discussion of each recommendation.
As a result of this new information, we made some clarifications to the
report.

        Before addressing the responses to each of our recommendations and
the actions necessary to close those recommendations, we address some
clarifications the Laboratory requested in its response that do not pertain to
individual recommendations. Specifically, the Laboratory questioned the
identification of our audit scope, which generally covered the period from
June 2009 through May 2011. We determined that our scope was correctly
presented, but based on Santa Clara’s response it appears it may have
misunderstood the application of our audit scope. Our audit scope does not
restrict our analysis of issues that occurred prior to the start of our audit
scope as they relate to our audit objectives. In addition, based on
information the Laboratory provided to us during our audit entrance
conference, we reported in our draft audit report that the Laboratory began
analyzing DNA as a means of processing criminal evidence in 1998. In its
response, the Laboratory clarified that it began analyzing DNA as a means of
processing criminal evidence in 1992 using DQa technology. We clarified the
background section of this final report based on the new information the
Laboratory provided in its response.

Recommendation Number:

1.	   Resolved. The FBI and the Laboratory responded to our
      recommendation that the FBI ensure the Laboratory abides by its
      NDIS match policy, including maintaining appropriate documentation


                                    - 45 ­
in its case files. The FBI stated in its response that its CODIS Unit is
working with the Laboratory to reach a mutually acceptable plan for
the maintenance of appropriate case file documentation.

The Laboratory stated in its response that it had updated its match
policy in 2010 and again in 2011, prior to the Laboratory’s ASCLD/LAB
ISO inspection. However, the Laboratory did not state how it planned
to ensure it maintains appropriate documentation in its case files as
evidence that the Laboratory is adhering to the NDIS match policy. As
we state in our report, we concluded during our audit that the
Laboratory did not maintain information in the case file to determine
whether or not the disposition occurred in a timely manner for two of
the five matches we reviewed.

The Laboratory also requested that we add dates of the matches
because they occurred prior to updates to Laboratory and QAS
procedures. We added time frames for the matches, but further note
that the NDIS Operational Procedures in effect at that time (2003 and
2006) also required confirmation of matches and notification of law
enforcement. As explained in our draft report, we were unable to
verify whether the law enforcement agency was notified of one match
and were not able to confirm the date of law enforcement notification
for the other match. In addition, there was insufficient documentation
in the case files to verify the time frames of the confirmation process
for the matches. As a result, we could not verify whether the
Laboratory adhered to NDIS requirements.

The Laboratory also stated in its response that it is unclear why the
OIG feels it should further strengthen its policy with regard to
QAS 5.3.4. in view of our conclusion that the Laboratory complied with
all of the Forensic QAS that we tested. However, the audit report does
not state that the Laboratory should further strengthen its policy with
regard to QAS 5.3.4. Instead, we cite the requirement QAS 5.3.4,
which discusses laboratories’ match policies, as it is relevant for the
finding that the Laboratory should strengthen its practices regarding
matches. Our audit report does not conclude that the Laboratory is in
violation of QAS 5.3.4.

The Laboratory also stated in its response that all matches from LDIS,
SDIS, and NDIS are recorded in CODIS Match Manager, and tracked in
its in-house CODIS Hits Excel spreadsheet. The Laboratory stated that
it was unclear how documentation in the case file relates to tracking
matches in CODIS Match Manager. However, this is new information
which was not provided to us during our audit site work. Specifically,
the Laboratory did not disclose to us that it tracked all matches with


                               - 46 ­
      its in-house CODIS Hits Excel spreadsheet until after our draft report
      was issued. As we state in our report, in response to our inquiries
      regarding this match the Laboratory’s CODIS Administrator stated that
      the match occurred before it was tracked within the CODIS Match
      Manager. Because the Laboratory did not provide documentation that
      this match was tracked in Match Manager, we did not revise this
      information in our report.

      To help ensure the integrity of the Laboratory’s match confirmation
      and law enforcement notification processes, we recommended that the
      Laboratory adhere to its NDIS match policy to include maintaining
      documentation that should be retained as evidence of key actions,
      such as match notification involving other laboratories, resulting
      confirmation, and law enforcement notification.

      This recommendation can be considered for closure when we receive
      the FBI’s and the Laboratory’s plan for how the Laboratory will adhere
      to its NDIS match policy and maintain appropriate case file
      documentation. Based on these plans, we may request additional
      evidence that corrective actions have been implemented.

2.	   Resolved. The FBI and the Laboratory responded to our
      recommendation that the FBI work with the Laboratory to determine
      NDIS eligibility for the remaining seven questioned profiles, which the
      Laboratory believed to be allowable. The FBI stated in its response
      and in our subsequent follow-up communications that the Laboratory
      and the FBI CODIS Unit determined that five profiles (CA-02, CA-27,
      CA-88, CA-89, and CA-67) are allowable and should remain in CODIS,
      while two profiles have been deleted (CA-05 and CA-83).

      In the Laboratory’s response, the Laboratory provided significant
      additional case information that was not provided to us when we
      reviewed the Laboratory’s case files before we issued the draft audit
      report for comment. The additional information for the five profiles
      ultimately determined by the FBI to be allowable is discussed below,
      and we made appropriate revisions to this final report due to this new
      information.

         •	 CA-02 – The Laboratory disclosed in its response to our draft
            report additional information indicating the perpetrator may have
            been in the victim’s vehicle prior to the murder.

         •	 CA-27/CA-89 – The Laboratory disclosed in its response to our
            draft report additional information regarding the profile’s link to
            the crime and attribution to the perpetrator.


                                    - 47 ­
         •	 CA-67 – The Laboratory disclosed in its response to our draft
            report additional information related to the driver of the car from
            which the gun was seized, as well as the gun’s link to the crime.

         •	 CA-88 – The Laboratory disclosed in its response to our draft
            report additional information concerning the collection of the
            bottle.

      This recommendation can be closed when we receive evidence
      documenting that CA-05 and CA-83 have been removed from NDIS, as
      well as evidence supporting the additional information the Laboratory
      described, which served as the basis for the FBI’s and the Laboratory’s
      decision to retain the five profiles in NDIS.

3.	   Resolved. The FBI and the Laboratory responded to our
      recommendation that the FBI ensure the Laboratory strengthens its
      profile eligibility review process to include: (1) proper reviews of each
      forensic profile for NDIS eligibility prior to upload, (2) basing its
      eligibility review process on sufficient case file and evidence
      documentation, and (3) only uploading eligible profiles to NDIS.
      Sufficient documented information is necessary to determine a profile’s
      eligibility prior to NDIS upload. The FBI stated that its CODIS Unit
      believes that detailed discussions with the OIG and CODIS Unit
      personnel has allowed the Laboratory to have a clearer understanding
      of NDIS eligibility requirements and the importance of making
      eligibility decisions based upon complete and appropriate case file
      documentation. In addition, the FBI stated that the Laboratory will
      endeavor to only upload truly allowable profiles to NDIS.

      In its response to our draft audit report, the Laboratory stated it will
      work with the FBI to strengthen its profile eligibility review process.
      However, beyond that statement, there was no additional information
      on how the Laboratory planned to strengthen its profile eligibility
      review process.

      In addition, the Laboratory stated in its response that it was unclear
      about our use of the term “Laboratory officials” in our discussion
      regarding individuals having a clear understanding of the CODIS
      eligibility requirements. For clarification, we added to the body of the
      report a reference to the individuals to whom we spoke, specifically
      the CODIS Administrator and the Laboratory Director. The Laboratory
      Director, in his response to our draft report, stated he felt that
      individuals at the Laboratory did have a clear understanding and to
      support his position stated that all CODIS users at the Laboratory
      undergo and have passed the Annual Review of DNA Accepted at NDIS


                                    - 48 ­
      training required by the FBI. However, based on the results of our
      audit, it appears that the DNA Analysts at the Laboratory may not
      have a clear understanding of the CODIS eligibility requirements even
      in consideration of the required training they complete. Specifically,
      we identified a large number of ineligible profiles that the Laboratory
      removed from NDIS, 44 in total, of which a third were uploaded to
      NDIS after 2006 when the guidelines were clarified. Further, the
      majority of the profiles we reviewed were only determined to be
      eligible after the Laboratory obtained, upon our request, additional
      information from the submitting agency. The majority of pivotal
      information determining eligibility was not documented in the case file
      until we requested it during our audit, which indicates that the
      analysts did not document in the case file a justifiable basis on which
      to upload more than half of the profiles in our sample. In our opinion
      and in consideration of NDIS guidelines, this is a concern.

      Also in its response, the Laboratory clarified the qualifications of its
      Technical Reviewer and we have revised the final report accordingly.

      This recommendation can be closed when we receive evidence that the
      Laboratory has strengthened its profile eligibility review process. This
      should include: (1) proper reviews of each forensic profile for NDIS
      eligibility prior to upload, (2) basing the eligibility review process on
      sufficient case file and evidence documentation, and (3) only uploading
      eligible profiles to NDIS.

4.	   Resolved. The FBI and the Laboratory responded to our
      recommendation that the FBI ensure the Laboratory re-reviews its
      forensic DNA profiles that were originally uploaded to NDIS between
      January 2006 and April 2012 by applying a strengthened profile review
      process and the NDIS eligibility flowchart. The FBI stated in its
      response that the Laboratory has completed its review of all profiles
      from 2006 to 2010 and anticipates that the Laboratory will be able to
      submit documentation supporting its review of the forensic profiles
      soon. The FBI’s CODIS Unit also stated that it is in contact with the
      Laboratory and continues to work with Laboratory staff on a mutually
      acceptable plan regarding the re-review of the remaining profiles and
      will continue to monitor the Laboratory’s progress in completing this
      task.

      In its response to our draft audit report, however, the Laboratory
      stated that although it has reviewed profiles entered into CODIS from
      2006 to 2010, it does not believe that profiles entered into CODIS in
      2011 and 2012 need to be reviewed because of the increasing amount
      of documentation it found in the case files from one year to the next


                                     - 49 ­
between 2006 and 2010. It further stated that the review of the 2010
profiles for CODIS eligibility has not revealed many issues. The
Laboratory stated that profiles entered into CODIS in 2011 and 2012
have been performed under updated Laboratory procedures and with
observations made from the OIG audit in mind.

As a result of our audit, we identified a total of 44 profiles that we
believe were inappropriate for NDIS and were subsequently removed.
We also found instances of Laboratory personnel not basing DNA
profile-eligibility conclusions on documented information from its case
files. In fact, of the 100 profiles in our sample, 53 percent did not
contain sufficient information to determine eligibility until we
requested it during our audit and even after we requested additional
information, there were profiles that continued to lack sufficient
information. We consider 44 to be a large number of inappropriate
profiles resulting from an OIG CODIS audit and based on the issues
discussed in our report, we believe the Laboratory may have additional
ineligible profiles in NDIS. To help ensure the integrity of the
database, laboratories must strictly abide by federal regulations
governing which profiles are appropriate for upload. Due to the
significant findings revealed in this audit, we believe that the
Laboratory should review each of the remaining profiles uploaded
through April 2012 to ensure they adhere to these federal guidelines.

This recommendation can be closed when we receive evidence of the
Laboratory completing its review of profiles from 2006 through April
2012, including information on how many profiles were removed from
CODIS as a result of the review.




                             - 50 ­
